                     Review of RRB’s Controls Over the Access,
                     Disclosure and Use of SSNs by Third Parties
                          Report No. 02-11, August 26, 2002


INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) review of the
Railroad Retirement Board’s (RRB) controls over the access, disclosure and use of
Social Security Numbers (SSNs) by third parties.

BACKGROUND

The RRB is an independent agency in the executive branch of the Federal government.
The RRB’s primary function is to administer comprehensive retirement-survivor and
unemployment-sickness benefit programs for the nation’s railroad workers and their
families. These benefits are provided under the Railroad Retirement Act and the
Railroad Unemployment Insurance Act. During fiscal year 2001, the RRB paid nearly
$8.4 billion in retirement-survivor benefits to approximately 700,000 beneficiaries.

The Social Security Administration (SSA) created the SSN in 1936 as a means of
tracking workers’ earnings and eligibility for Social Security benefits. However, over the
years, the SSN has become a “de facto” national identifier used by Federal agencies,
state and local governments, and private organizations. Government agencies
frequently ask individuals for their SSNs to comply with applicable laws and regulations
or to efficiently track and exchange information. A number of laws and regulations also
impose limitations on how agencies may use SSNs.

Due to concerns related to perceived widespread sharing of personal information and
occurrences of identity theft, the General Accounting Office (GAO) studied how and to
what extent Federal, state and local government agencies use individuals’ SSNs and
how these entities safeguard records or documents containing those SSNs. As part of
the study, GAO sent questionnaires to 18 Federal programs that were likely to routinely
collect, maintain, and use individuals’ SSNs. The RRB was not selected for the GAO
study. Specifically, GAO’s questionnaires asked each Federal program to provide
information about the following:

• ways in which the program obtains, maintains, and uses individuals’ SSNs;
•	 current practices for providing individuals’ SSNs to other organizations, including
   fees charged; and
• practices for safeguarding records containing SSNs.

GAO’s study showed that government agencies are taking steps to safeguard SSNs;
however, certain measures that could help protect SSNs are not uniformly in place at
any level of government. First, when requesting SSNs, government agencies are not
consistently providing individuals with information required by Federal law. For



                                            1

example, agencies are not consistently informing the SSN holders of whether they must
provide the SSN to receive benefits or services and how the SSN will be used. Second,
although agencies are taking steps to safeguard the SSNs from improper disclosure,
the survey identified potential weaknesses in the security of information systems at all
levels of government. The reviews also found numerous examples of actions taken to
limit the presence of SSNs on documents that are not intended to be public but are
nonetheless seen by others.

The expanded use of the SSN as a national identifier provides a tempting motive for
many unscrupulous individuals to acquire a SSN and use it for illegal purposes. While
no one can fully prevent SSN misuse, Federal agencies have some responsibility to
limit the risk of unauthorized disclosure of SSN information. To that end, the Chairman
of the House of Representatives’ Ways and Means Subcommittee on Social Security
asked SSA/OIG and the President’s Council on Integrity and Efficiency (PCIE) to look
across government at the way Federal agencies disseminate and control the SSN.
Several Federal agencies, including the RRB, participated in this joint project and the
PCIE coordinated the review.

The Freedom of Information Act, the Privacy Act of 1974, and the Social Security Act
Amendments of 1990 establish the framework for restricting SSN disclosure.1
Specifically, with regard to collecting SSN information, section 7 of the Privacy Act
prohibits any Federal, state or local government entity from conditioning any benefit on
SSN disclosure by the individual, unless permitted by Federal law.

With regard to disclosures of SSNs contained in Federal record systems (i.e., records
maintained on individuals), the Privacy Act controls the use and disclosure of such
personal information, but does not specifically address SSNs. For each record system
maintained by an agency, a Privacy Act notice must be published informing, among
other things, the routine uses and disclosures of that information, which of course will
include the SSN if relevant.

The Information Resources Management Center supports the RRB’s Chief Information
Officer in fulfilling responsibilities required by the Privacy Act. Administrative Circular
IRM-2 describes the RRB’s responsibilities under the Privacy Act. The circular also
provides the responsibilities for the RRB’s Privacy Act Officer under the Privacy Act.
These responsibilities include the following:

•	 to provide guidance, technical assistance, and general oversight for compliance with
   the Privacy Act;
•	 to serve as the focal point for RRB Privacy Act activities and as the primary liaison
   with the Office of Management and Budget, and the Office of Federal Register for
   Privacy Act Matters;
•	 to review routine use disclosures, exemptions of systems of records, Privacy Act
   training, and systems of record notices as required by OMB Circular A-130; and
1
 Freedom of Information Act (5 United States Code § 552), Privacy Act of 1974 (5 United States Code § 552a),
and the Social Security Act Amendments of 1990 (42 United States Code § 405(c)(2)(C)(viii).


                                                       2

•    to coordinate efforts among the bureaus and offices to furnish records to requestors.

OBJECTIVE, SCOPE AND METHODOLOGY

The objective of this review was to assess the RRB’s controls over the access,
disclosure and use of SSN information by third parties. Specifically, we determined
whether the RRB:

• made legal and informed disclosures of SSNs to third parties;
• had appropriate controls over contractors’ access and use of SSNs;
•	 had appropriate controls over other entities’, excluding government entities and
   contractors, access and use of SSNs; and
• had adequate controls over access to individuals’ SSNs maintained in its databases.

In accordance with the PCIE guidelines, the review was limited to RRB controls over the
access, disclosure and use of RRB beneficiaries’ SSN information by third parties. The
review covered calendar year 2001 activities. Some information has been provided for
earlier and subsequent years because the RRB reports on a fiscal year basis, and some
contracts covered multiple years.

To accomplish the objective, the OIG:

•  reviewed applicable laws and regulations;
•  reviewed prior audit reports;
•  submitted GAO’s questionnaire to applicable RRB officials;
•	 reviewed the RRB’s controls over the disclosure of and access to SSN information
   by third parties;
•	 judgmentally selected and reviewed disclosures to three Federal agencies, three
   state agencies, two researchers, two private contractors, a railroad, and six
   insurance companies for compliance with the Privacy Act, as well as applicable
   agreements between parties;
•	 interviewed RRB personnel responsible for controlling SSN disclosure and access;
   and
•	 provided examples of additional steps that the agency can take to ensure that it has
   adequate controls over the use and protection of SSNs.

The review was performed in accordance with generally accepted government auditing
standards appropriate for this type of review. The fieldwork was performed at the RRB
headquarters office in Chicago, Illinois from January through July 2002.

                                  RESULTS OF REVIEW


The review showed that RRB controls over the access, disclosure and use of SSNs by
third parties are generally adequate but improvements can be made. The RRB made
legal and informed disclosures of SSNs to Federal and state agencies, contractors,



                                             3

insurance companies, universities, researchers, and railroads through the
administration of the RRA and RUIA programs. Prior to disclosing SSN information, the
RRB notified all individuals who applied for benefits that their SSNs may be disclosed.

The RRB also released SSNs of deceased beneficiaries to non-government entities and
non-contractors. The RRB’s Privacy Act Officer stated that the Privacy Act does not
protect death information. Therefore, the RRB did not have any control issues in this
area.

The RRB can strengthen some controls over contractors’ access and use of SSNs and
controls over access to SSNs maintained in the RRB’s databases. The following
sections of the report provide a detailed discussion of areas where improvements can
be made.

SERVICES PROVIDED BY CONTRACTORS

The RRB has some controls over contractors’ access and use of SSNs.

For example, the RRB included the Privacy Act Notification in contracts or referenced

the Privacy Act, conducted inspections of contractors’ facilities, and addressed the

disposition of SSNs and other identifying information. However, controls can be

strengthened.


The RRB’s Office of Administration and the Office of Programs indicated that they

provided information, including SSNs, to four private contractors who provide services

for RRB programs. We reviewed two contracts, Consultative Examinations, Ltd. (CEL)

and Commercial Data Centers, Inc. (CDC), and determined that controls over the

access and use of SSNs could be improved.


CEL provides medical opinions on approximately 8,000 RRB disability claims per year.

The contractor is responsible for the daily pick-up and return of case files from the RRB

headquarters and advisory medical opinions to the RRB headquarters within the time

frames prescribed in the contract.


The contract provided that CEL would maintain a dedicated suite for only RRB work, the

suite would be locked at all times, and cabinets used to store files would be fireproof.

CEL’s technical proposal called for an inventory control system with an up-to-the-minute

status report on each claim file.


The RRB’s solicitation urged the agency to inspect the site at which services were to be

performed. In addition, the Federal Acquisition Regulation provided that the contracting

officer should insert a clause allowing on-site inspections.2 The clause states that to the

extent required to carry out a program of inspection to safeguard against threats and

hazards to the security, integrity, and confidentiality of government data, the contractor

shall afford the government access to the contractor’s facilities, operations,

documentation, records and databases.

2
    Federal Acquisition Regulation 52.239.1- Privacy or Security Safeguards.


                                                          4

A previous OIG audit performed in 2001 indicated that CEL did not specify how the
contractor would comply with the Privacy Act and contract provisions regarding the
privacy, confidentiality, and safety of RRB case files. 3 These situations were corrected
in calendar year 2001.

The OIG audit also disclosed that the RRB did not inspect the facility after the contract
was awarded in October 2000. Because the RRB did not inspect CEL’s facility in 2001,
the RRB had no assurance that its sensitive documents were protected from
unauthorized disclosure. The OIG recommended in its report that the RRB perform
periodic unannounced reviews of the contractor’s facility.

The RRB performed the unannounced inspection of the CEL facility on March 27, 2002
and found: (1) an unsecured dedicated suite, (2) loss of accountability of case files, and
(3) case files stored in a non-fireproof cabinet. The contractor resolved all three issues.
The RRB indicated it would conduct periodic reviews of the contractor’s facility during
calendar year 2002.

The RRB used the other private contractor, CDC, to produce and mass mail 717,823
annual tax statements and approximately 300,000 service and compensation records to
RRA beneficiaries in calendar year 2001.

The contract with CDC included appropriate security procedures for safeguarding SSNs
including the Privacy Act Notification. The RRB visited the contractor’s location to
determine the accuracy and timeliness of the tax statements and to review storage
locations. The visitation included limited security checks related to document storage
and the destruction of documents with printing errors. The inspection did not verify
other procedures identified in CDC’s Security Plan, such as access control, use of log
sheets, issuance and control of magnetic cards, and password control. The RRB’s
visitation did not cover the other CDC security procedures because the RRB’s on-site
inspection checklist provided for only limited inspection of security procedures. Without
sufficiently inspecting or otherwise evaluating the adequacy of CDC’s operations, the
RRB cannot be assured that the contractor is safeguarding SSNs and other sensitive
information.

Recommendation

The Office of Programs should take steps to evaluate and ensure the adequacy of
CDC’s procedures for safeguarding SSNs and other sensitive information
(Recommendation No. 1).

Management’s Response



3
    Report No. 02-02, Review of the RRB’s Contract with CEL for Medical Consulting Services, dated January 4,
    2002.


                                                        5

The Office of Programs concurs with this recommendation. The Office of Programs will
take steps to evaluate and ensure the adequacy of CDC’s procedures for safeguarding
SSNs and other sensitive information. These actions will be completed to coincide with
the next production run of the contract with CDC. A complete copy of the response is
included as Attachment 1.

ACCESS TO SSNs MAINTAINED IN RRB DATABASES

The RRB has established some controls over access to SSNs maintained in its
databases. For example, database users must be authorized by a systems
administrator, have a system password, and have access to system information only to
the extent needed to perform their jobs. However, controls can be strengthened.

In calendar year 2001, the OIG reviewed information security at the RRB pursuant to
the requirements of the Government Information Security Reform Act.4 The scope of
the review covered information system security at the RRB during May through
September 2001. The review disclosed weaknesses in most areas of the RRB’s
information security program. Significant deficiencies in program management and
access controls made the agency’s information security program a material weakness in
internal control over financial reporting. The OIG made specific recommendations for
corrective action. The RRB indicated that they have implemented many of the
recommendations. The OIG, however, still considers the agency to have a material
weakness related to information security due to inadequacies in access controls and
training of key personnel.

In addition, three employees with the Centers for Medicare and Medicaid Services
(CMS) had direct access to RRB databases, in calendar year 2001. RRB management
identified them as the only individuals, other than RRB employees, with direct access to
RRB databases.

The RRB’s Bureau of Information Services performs an annual security audit and
distributes the report to system owners. The owners then provide feedback on the
access needs of the individuals in the report. However, this report lists only RRB
employees with access to RRB computer systems.

Appendix III to OMB Circular A-130 requires that Federal agencies implement and
maintain a program to ensure that adequate security is provided for all agency
information collected, processed, transmitted, stored, or disseminated in general
support systems and major applications.

If CMS employees were included on this list, the control could be effective in identifying
CMS employees who have access to system features that they do not need for the
performance of their duties. Unneeded system access could allow unauthorized
disclosures of SSNs. During calendar year 2001, the RRB relied on CMS to notify the
RRB when access needs change.
4
    Report No. 02-04, Review of Information Security at the Railroad Retirement Board, dated February 5, 2002.


                                                          6

Recommendation

The Bureau of Information Services should include non-RRB employees in future
security reports (Recommendation No. 2).

Management’s Response

The Bureau of Information Services concurs with this recommendation. Non-RRB
employees who have access to RRB computer systems will be included in the annual
security audit. This will take effect October 1, 2002 for the two CMS employees.




                                         7

                                   REPORT TABLE

Objective #1: To determine whether your agency makes legal and informed
disclosures of SSNs to third parties.


A. Does the agency make legal and informed disclosures of SSNs to                YES
   third parties? If yes, only answer B and then go to Objective 2. If no,
   answer questions B, C, & D, as appropriate.


B. Please provide an example or two of how your agency makes legal and
   informed disclosures of SSNs to third parties.

The Railroad Retirement Board (RRB) provides information that discloses individuals’
SSNs to Federal and state agencies, contractors, insurance companies, universities,
researchers, and railroads through its administration of the Railroad Retirement Act and
Railroad Unemployment Insurance Act.

� The RRB has state wage matching agreements with all 50 states, the District of
  Columbia and Puerto Rico. Under the agreements, the RRB provides the states
  with the SSNs of RRB claimants and beneficiaries. The states return wage or
  unemployment benefit information to the RRB. This information enables the RRB to
  identify individuals receiving payments from non-railroad employers, or state
  unemployment benefits, for days they also claim railroad unemployment or sickness
  benefits. The matching agreements are also used to monitor the earnings of railroad
  disability annuitants.

� The RRB provides identifying information, including SSNs, to the Department of
  Veterans Affairs. The RRB has the authority to release information to the
  Department of Veterans Affairs to determine if claimants are eligible for veteran
  benefits and if any previous veteran benefits were paid incorrectly.

� The RRB also provides information, including individuals’ SSNs to contractors. One
  contractor, Consultative Examinations, Ltd. (CEL), provides medical opinions on
  approximately 8,000 RRB disability claims per year. The contractor is responsible
  for the daily pick-up of case files from the RRB headquarters and for the delivery of
  case files and advisory medical opinions to the RRB headquarters within the time
  frames prescribed in the contract.




                                           8

Objective #2: To determine whether your agency has appropriate controls over
contractor’s access and use of SSNs.



A. Does your agency use contractors? If yes, continue to question B. If               YES
   no, go to Objective #3


B. Does your agency have appropriate controls over contractors’                        NO
   access and use of SSNs? If yes, only answer C and go on to Objective
   #3. If no, answer questions C, D, and E as appropriate.


C. Please provide an example or two of how your agency has appropriate
   controls over contractors’ access and use of SSNs.

We reviewed two written contracts the RRB had in force during 2001: one with CEL,
and the other with Commercial Data Centers, Inc. (CDC). CEL provides medical
opinions on approximately 8,000 RRB disability claims per year. The contractor is
responsible for the daily pick-up of case files from the RRB headquarters and for the
delivery of case files and advisory medical opinions to the RRB headquarters. CDC
issues RRB Tax Statements (Form 1099) to beneficiaries who received railroad
retirement annuities during the tax year and Certificates of Service Months &
Compensation (Form BA-6) to current railroad employees.

One contract states that the contractor will ensure the privacy, confidentiality, and safety
of the physical and electronic case files while the files are in the possession of the
contractor. The other contract provides that information regarding any individual is of a
confidential nature and must be handled so that such information does not have any
unauthorized use.

In addition, both contracts provide for the return of all individual information when it is no
longer needed.




                                              9

D. Briefly describe the specifics of how your agency fails to have adequate
   controls over contractors’ access and use of SSNs. For example, your agency
   does not (1) have a MOU or written agreement that outlines how contractor’s
   should use and protect SSNs or (2) monitor contractors’ access and use of
   SSNs.

� The RRB did not perform an on-site inspection of CEL’s facility in calendar year
  2001. The RRB did perform an unannounced inspection of CEL’s facility on March
  27, 2002 and found the following: (1) an unsecured dedicated suite, (2) loss of
  accountability of case files, and (3) case files stored in a non-fireproof cabinet. The
  contractor resolved all three issues and the RRB indicated it would conduct periodic
  reviews of the contractor’s facility during calendar year 2002.

� The RRB visited the CDC’s processing location to determine the accuracy and
  timeliness of the tax statements and to review storage locations. The visitation
  included limited security checks related to document storage and the destruction of
  documents with printing errors. However, the inspection did not verify other
  procedures identified in CDC’s Security Plan, such as: access control, use of log
  sheets, issuance and control of magnetic cards and password control.


E. List specific steps (you identified) that your agency can take to ensure it has
   adequate controls over access to SSNs maintained in its databases.

The Office of Programs should take steps to evaluate and ensure the adequacy of
CDC’s procedures for safeguarding SSNs and other sensitive information.




                                           10

Objective #3: To determine whether your agency has appropriate controls other
entities’ (non-government/non-contractor) access and use of SSNs.



A. Does your agency grant other entities (non-government / non-                  YES
   contractor) access and use of SSNs? If yes, continue to question B.
   If no, go to Objective #4.


B. Does your agency have appropriate controls over other entities’               N/A
   (non-government / non-contractor) access and use of SSNs? If yes,
   only answer C and go on to Objective #4. If no, answer questions C, D,
   and E as appropriate.


C.	 Please provide an example or two of how your agency has appropriate
    controls over other entities’ (non-government / non-contractor) access and
    use of SSNs.

The RRB disclosed claimant’s identifying information to the following non-government /
non-contractor entities during calendar year 2001: Asset Quest, Union Pacific Railroad,
and six insurance companies. All of the information provided related to deceased
individuals.

RRB personnel contact the RRB’s Privacy Act Officer and the Bureau of Law for
guidance before releasing the information. Since the information disclosed related to
deceased individuals only, no controls are necessary. Death information is not
protected by the Privacy Act.




                                          11

Objective #4: To determine whether your agency has adequate controls over
access to individuals’ SSNs maintained in its databases.


A. Does your agency grant access to SSNs maintained in its
   databases to individuals affiliated with other organizations? If yes,      YES
   continue to question B. If no, you are finished.

B. Does your agency have adequate controls over access to SSNs
   maintained in its databases? If yes, only answer C. If no, answer          NO
   questions C, D, and E as appropriate.

C. Please provide an example or two of the controls your agency has over access
   to SSNs maintained in its databases.

RRB database users must be authorized by a system’s administrator, must have a
system’s password, and can access system information only to the extent needed to
perform their jobs.




                                         12

D. Briefly describe the specifics of how your agency fails to have adequate
   controls over access to SSNs maintained in its databases. For example, your
   agency does not have (1) a MOU or written agreement that outlines how
   personnel from other organizations should safeguard SSNs or (2) system
   controls to preclude unauthorized employees from gaining access to SSNs
   maintained in its databases.

In calendar year 2001, the OIG reviewed information security at the RRB pursuant to
the requirements of the Government Information Security Reform Act.5 The Scope of
the review covered information system security at the RRB during May through
September 2001. The review disclosed weaknesses in most areas of the RRB’s
information security program. Significant deficiencies in program management and
access controls made the agency’s information security program a material weakness in
internal control over financial reporting. The OIG made specific recommendations for
corrective action. The RRB indicated that they have implemented many of the
recommendations. The OIG, however, still considers the agency to have a material
weakness related to information security due to inadequacies in access controls and
training of key personnel.

In addition, three employees with the Centers for Medicare and Medicaid Services
(CMS) had direct access to RRB databases in calendar year 2001. RRB management
identified them as the only individuals, other than RRB employees, with direct access to
RRB databases.

The RRB’s Bureau of Information Services performs an annual security audit and
distributes a report to system owners. The owners then provide feedback as to whether
the individuals in the report still need the access provided to them. However, the report
lists only RRB employees with access to RRB computer systems.

If CMS employees were included in this report, the control could be effective in
identifying CMS employees who have access to system features that they do not need
for the performance of their duties. Unneeded system access could allow unauthorized
disclosures of SSNs . During calendar year 2001, the RRB relied on CMS to notify the
RRB when access needs change.

E. List specific steps (you identified) that your agency can take to ensure it has
   adequate controls over access to SSNs maintained in its databases.

The RRB should include non-RRB employees in future security reports.




5
    Report No. 02-04, Review of Information Security at the Railroad Retirement Board, dated February 5, 2002.


                                                         13
